HHS/OIG-Audit-"Review of Oklahoma Department of Human Services' Systems
and Procedures for Recovering and Refunding Overpayments Made Under the Aid to
Families with Dependent Children Program" (A-06-02-00029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Oklahoma Department of Human Services' Systems and Procedures
for Recovering and Refunding Overpayments Made Under the Aid to Families with
Dependent Children Program," (A-06-02-00029)
July 17, 2002
Complete Text of Report is available in PDF format
(1.53 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that from April 1, 1997 through March 31, 2002
a total of $2.4 million ($1.6 million Federal Share) in AFDC overpayments had
been recovered by the Oklahoma Department of Human Services (OKDHS).  We
recommended that OKDHS refund $1.6 million to the Administration for Children
and Families (ACF) in accordance with Federal requirements and that they refund
the Federal share of subsequent AFDC recoveries to ACF in the form of a check
at least quarterly.  The OKDHS concurred.  The OKDHS also enclosed
a copy of the check written to ACF to refund the $1.6 million in overpayments
and a worksheet detailing its calculations.  The OKDHS stated it will calculate
the same for future periods, refund the Federal share on a quarterly basis and
adjust any Federal reports.